\

I

MICHAEL OWEN HARRIOT. Plaintiff - Appellant, v. UNITED STATES, (Federal Bureau of
Investigation "FBI"), Defendant - Appellee.
UNITED STATES COURT OF APPEALS FOR THE FOURTH CIRCUIT
795 Fed. Appx. 215; 2020 U.S. App. LEXIS 5815
No. 19-7511
February 20, 2020, Submitted
February 26, 2020, Decided
Notice:
PLEASE REFER TO FEDERAL RULES OF APPELLATE PROCEDURE RULE 32.1 GOVERNING
THE CITATION TO UNPUBLISHED OPINIONS.
Editorial Information: Prior History '•
{2020 U.S. App. LEXIS 1}Appeal from the United States District Court for the District of South Carolina,
at Columbia. (3:19-cv-02482-JFA). Joseph F. Anderson, Jr., Senior District Judge.Harriot v. United
States, 2019 U.S. Dist. LEXIS 172497 (D.S.C., Oct. 4, 2019)
Disposition:
AFFIRMED.

*

Michael Owen Harriot. Appellant, Pro se.
Counsel
Judges: Before AGEE, QUATTLEBAUM, and RUSHING, Circuit Judges.
Opinion

{795 Fed. Appx. 216} PER CURIAM:
Michael Owen Harriot appeals the district court's order accepting the recommendation of the
magistrate judge and dismissing under 28 U.S.C. § 1915(e)(2)(B) (2018) his complaint filed pursuant
to the Federal Torts Claims Act (FTCA), 28 U.S.C. §§ 1346(b), 2671-80 (2018). ”[W]e may affirm a
district court's ruling on any ground apparent in the record." United States ex rel. Drakeford v.
Tuomey, 792 F.3d 364, 375 (4th Cir. 2015). A federal court may sua sponte dismiss a complaint as
barred by the statute of limitations on initial review pursuant to 28 U.S.C. § 1915 (2018). Eriline Co.
S.A. v. Johnson, 440 F.3d 648, 656-57 (4th Cir. 2006); Nasim v. Warden, Md. House ofCorr., 64
F.3d 951, 954-55 (4th Cir. 1995) (en banc). We affirm the district court's order because Harriot's
claims are barred by the applicable statute of limitations.* See 28 U.S.C. § 2401(b) (2018). We deny
Harriot’s motion for a certified copy of the arrest warrant. We dispense with oral argument because
the facts and legal contentions are adequately presented in the materials before this court and
argument would not aid the decisional process.
AFFIRMED
Footnotes
*

CIRHOT

1

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

. 96039071

We also discern no abuse of discretion in the district court's decisions denying Harriot's request to
appoint counsel and Harriot's motion for recusal. See Belue v. Leventhal, 640 F.3d 567, 573 (4th Cir.
2011); Whisenant v. Yuam, 739 F.2d 160, 163 (4th Cir. 1984), abrogated on other grounds by
Mallard v. United States Dist. Court for Southern Dist., 490 U.S. 296, 109 S. Ct. 1814, 104 L. Ed. 2d
318(1989).

»

S

CIRHOT

2

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the'
restrictions and terms and conditions of the Matthew Bender Master Agreement.

«

i8071

Michael Owen Harriot, Plaintiff, vs. United States of America, Defendant.
UNITED STATES DISTRICT COURT FOR THE DISTRICT OF SOUTH CAROLINA
2019 U.S. Dist. LEXIS 172756
C/A No.: 3:19-2482-JFA-SVH
September 20, 2019, Decided
September 20, 2019, Filed
Editorial Information: Subsequent History
Adopted by, Dismissed by Harriot v. United States, 2019 U.S. Dist. LEXIS 172497 (D.S.C., Oct. 4, 2019)
Editorial Information: Prior History
Harriot v. United States, 2019 U.S. Dist. LEXIS 158018 (D.S.C., Sept. 16, 2019)
Counsel

{2019 U.S. Dist. LEXIS 1}Michael Owen Harriot, Plaintiff, Pro se, Estill,

SC.
Judges: Shiva V. Hodges, United States Magistrate .luHnp
Opinion
Opinion by:

Shiva V. Hodges
Opinion

REPORT AND RECOMMENDATION
Michael Owen Harriot ("Plaintiff"), proceeding pro se and in forma pauperis, filed this complaint
against the United States of America ("Defendant") seeking damages under the Federal Tort Claims
Act ("FTCA"). Pursuant to the provisions of 28 U.S.C. § 636(b)(1)(B) and Local Civ. Rule
73.02(B)(2)(e) (D.S.C.), the undersigned is authorized to review such complaints for relief and submit
findings and recommendations to the district judge. For the following reasons, the undersigned
recommends the district judge dismiss the complaint with prejudice and without issuance and service
of process.
I. Factual and Procedural Background
Plaintiff is a federal inmate incarcerated at Federal Correctional Institution Estill. [ECF No. 1-2]. On
December 1, 2000, Plaintiff was convicted of offenses under 21 U.S.C. §§ 841(a)(1), 846, and 861(a)
and 8 U.S.C. § 1326(a), and sentenced to life imprisonment. See USA v. Harriot, No.
3:99-cr-341-MBS-3 (April 30, 2001). 1
Plaintiff alleges that on July 24,1999, Sheriff's deputies arrested him in Columbia, South Carolina at
the direction of Federal Bureau of Investigation ("FBI") Agent Waizenhofer ("Agent"). Id. at 3. He
claims he was{2019 U.S. Dist. LEXIS 2} subsequently transported to jail without a warrant or
probable cause by two FBI special agents acting at the direction of Agent. Id. at 4. Plaintiff maintains
Agent subsequently swore out a false criminal complaint in Case No. 3:99-MJ-481 on July 26, 1999,
to conceal Plaintiffs original arrest from the Magistrate Judge and court. Id. He claims Agent
admitted during a November 2000 suppression hearing that no arrest warrant existed prior to the July

lydcases

1

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

96039071

24, 1999 arrest. Id. at 5. Plaintiff states there is no evidence in the record that an arrest Warrant was
issued. Id. at 4. He claims Assistant United States Attorney Stacey D. Haynes admitted in a reply to
his § 2255 petition that Plaintiff had been arrested on July 24,1999, but falsely stated Magistrate
Judge Bristow Marchant had signed a warrant for Plaintiffs arrest on July 26, 1999. Id. at 5.
Plaintiff alleges he discovered Agent's "fraudulent concealment" while researching and reviewing
cases in February 2018. He maintains he presented his administrative claims to the "appropriate FBI
agency" through Standard Form 95 ("Form SF-95") on January 3, 2019, and requested the agency
conduct an internal investigation, ascertain the legitimacy of his claims, and remit $15 million{2019
U.S. Dist. LEXIS 3} to him. Id. at 2. He claims FBI Chief Division Counsel Donald A. Wood returned
the Form SF-95 to him on January 10, 2019, with a letter indicating the claim was not perfected. Id.
He maintains he perfected the claim on January 22, 2019, by attaching copies of the criminal
complaint in Case No. 3:99-MJ-481 and the indictment in Case No. 3:99-341. Id. He claims he
received no response, despite having sent a follow up letter on July 22, 2019. Id. at 2-3.
Plaintiff requests Defendant compensate him for false arrest and imprisonment under the FTCA.
[ECF No. 1 at 1], He seeks damages of $15 million, appointment of counsel, and any other relief the
court may provide.2 Id. at 9.
II. Discussion
A. Standard of Review
Plaintiff filed his complaint pursuant to 28 U.S.C. § 1915, which permits an indigent litigant to
commence an action in federal court without prepaying the administrative costs of proceeding with
the lawsuit. To protect against possible abuses of this privilege, the statute allows a district court to
dismiss a case upon a finding that the action fails to state a claim on which relief may be granted or
is frivolous or malicious. 28 U.S.C. § 1915(e)(2)(B)(i), (ii). A finding of frivolity can be made where
the complaint lacks an arguable basis either in law or{2019 U.S. Dist. LEXIS 4} in fact. Denton v.
Hernandez, 504 U.S. 25, 31, 112 S. Ct. 1728, 118 L. Ed. 2d 340 (1992). A claim based on a
meritless legal theory may be dismissed sua sponte under 28 U.S.C. § 1915(e)(2)(B). See Neitzke v.
Williams, 490 U.S. 319, 327, 109 S. Ct. 1827, 104 L. Ed. 2d 338 (1989).
Pro se complaints are held to a less stringent standard than those drafted by attorneys. Gordon v.
Leeke, 574 F.2d 1147, 1151 (4th Cir. 1978). A federal court is charged with liberally construing a
complaint filed by a pro se litigant to allow the development of a potentially meritorious case.
Erickson v. Pardus, 551 U.S. 89, 94, 127 S. Ct. 2197, 167 L. Ed. 2d 1081 (2007). In evaluating a pro
se complaint, the plaintiff's allegations are assumed to be true. Fine v. City of N.Y., 529 F.2d 70, 74
(2d Cir. 1975). The mandated liberal construction afforded to pro se pleadings means that if the court
can reasonably read the pleadings to state a valid claim on which the plaintiff could prevail, it should
do so. Nevertheless, the requirement of liberal construction does not mean that the court can ignore
a clear failure in the pleading to allege facts that set forth a claim currently cognizable in a federal
district court. Weller v. Dep't ofSoc. Servs., 901 F.2d 387, 390-91 (4th Cir. 1990).
B. Analysis
1. Plaintiffs Claim Barred by Heck
Plaintiff's claims for damages for alleged false arrest and imprisonment are barred by the United
States Supreme Court's holding in Heck v. Humphrey, 512 U.S. 477, 114 S. Ct. 2364,129 L. Ed. 2d
383 (1994). The Court stated the following:
We hold that, in Order to recover damages for allegedly unconstitutional conviction or
imprisonment, or for other harm caused by actions whose unlawfulness{2019 U.S. Dist. LEXIS

lydcases

2

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

96039071

5} would render a conviction,or sentence invalid, a § 1983 plaintiff must prove that the conviction
or sentence has been reversed on direct appeal, expunged by executive order, declared invalid
by a state tribunal authorized to make such determination, or called into question by a federal
court's issuance of a writ of habeas corpus, 28 U.S.C. § 2254. A claim for damages bearing that
relationship to a conviction or sentence that has not been so invalidated is not cognizable under
§ 1983.Id. at 486-87. Other courts have extended the Supreme Court's holding in Heck to cases
brought pursuant to the FTCA. See e.g., O'Brien v. United States Federal Government. 763
Fed. App'x 157 (3d Cir. 2019) ("Furthermore, we discern no reversible error in the District Court's
determination that Heck's favorable termination rule may not apply just to the Bivens claim, but
to the FTCA and RICO claims in O'Brien's amended complaint as well."); Erlin v. United States,
364 F.3d 1127, 1133 (9th Cir. 2004) (holding that "a civil action under the Federal Tort Claims
Act for negligently calculating a prisoner's release date, or otherwise wrongfully imprisoning the
prisoner, does not accrue until the prisoner has established, in a direct or collateral attack on his
imprisonment, that he is entitled to release from custody"); Parris v. United States, 45 F.3d 383,
385 (10th Cir. 1995) ("FTCA, like § 1983, is not an appropriate vehicle for challenging the{2019
U.S. Dist. LEXIS 6} validity of outstanding criminal judgments.").
In addressing a claim for damages, "the district court must consider whether a judgment in favor of
the plaintiff would necessarily imply the invalidity of his conviction or sentence; if it would, the
complaint must be dismissed unless the plaintiff can demonstrate that the conviction or sentence has
already been invalidated." Heck, 512 U.S. at 487. Judgment in Plaintiff's favor on his false arrest and
imprisonment claims would necessarily imply the invalidity of his subsequent conviction. The court
takes judicial notice that Plaintiff unsuccessfully challenged his conviction through direct appeal and
collateral proceedings. See USA v. Harriot, No. 3:99-cr-341-MBS-3 (April 30, 2001), appeal
dismissed, 37 Fed. Appx. 601 (4th Cir. 2002); Harriot v. USA, No. 3:03-3299-MJP, 2005 U.S. Dist.
LEXIS 51844 (D.S.C. September 19, 2005), appeal dismissed, No. 05-7704 (4th Cir. July 24, 2016).
Because Plaintiff fails to demonstrate he has successfully challenged his convictions, Heck bars his
claims. Therefore, the undersigned recommends these claims be summarily dismissed.
2. Denial of Request for Appointment of Counsel
Plaintiff is not entitled to appointed counsel. Pursuant to 28 U.S.C. § 1915(e)(1), "[tjhe court
may{2019 U.S. Dist. LEXIS 7} request an attorney to represent any person unable to afford
counsel.” Nevertheless, "it is well settled that in civil actions the appointment of counsel should be
allowed only in exceptional cases." Cook v. Bounds, 518 F.2d 779, 780 (4th Cir. 1975) (citing United
States v. Madden, 352 F.2d 792 (9th Cir. 1965)). A review of the complaint reveals no exceptional or
unusual circumstances that would justify the appointment of counsel in this matter.
III. Conclusion and Recommendation
‘For the foregoing reasons, the undersigned recommends the district judge dismiss the complaint with
prejudices and without issuance and service of process.
IT IS SO RECOMMENDED.
September 20, 2019
Columbia, South Carolina
1st Shiva V. Hodges
Shiva V. Hodges

*

United States Magistrate Judge

lydcases

3

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

96039071

Footnotes
*

1
The court takes judicial notice of Petitioner's prior cases. See Colonial Penn Ins. Co. v. Coil, 887
F.2d 1236,1239 (4th Cir. 1989) ("The most frequent use of judicial notice of ascertainable facts is in
noticing the content of court records.") (citation omitted).
2
Plaintiff requests a "true certiffied] copy" of Agent's criminal complaint in Case No. 3:99-MJ-481, as
well as the arrest warrant in the case. [ECF No. 1 at 9]. Plaintiff is advised that he may request from
the Clerk of Court copies of documents he is entitled to receive, but will be assessed the normal
costs associated with obtaining those documents.
3
Because Plaintiffs claims would ultimately fail if he were permitted to amend his complaint, the
undersigned recommends the district judge order the dismissal with prejudice.

t

t

lydcases

4

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

96039071

r*

KPPb iX p>
Michael Owen Harriot. Plaintiff, vs. United States of America, Defendants.
UNITED STATES DISTRICT COURT FOR THE DISTRICT OF SOUTH CAROLINA
2019 U.S. Dist. LEXIS 172497
C/A No. 3:19-2482-JFA-SVH
October 4, 2019, Decided
October 4, 2019, Filed
Editorial Information: Prior History
Harriot v. United States, 2019 U.S. Dist. LEXIS 172756 (D.S.C., Sept. 20, 2019)
{2019 U.S. Dist. LEXIS 1}Michael Owen Harriot. Plaintiff, Pro se, Estill,
SC.
Judges: Joseph F. Anderson, Jr., United States District Judge.

Counsel

Opinion
Opinion by:

Joseph F. Anderson, Jr.

Opinion

ORDER
I. INTRODUCTION
Michael Owen Harriot. ("Plaintiff”), a prisoner proceeding pro se and in forma pauperis, filed this
complaint against the United States of America ("Defendant") seeking damages under the Federal
Tort Claims Act ("FTCA"). (ECF No. 1). In accordance with 28 U.S.C. § 636(b) and Local Civil Rule
73.02(B)(2)(c) (D.S.C.), the case was referred to the Magistrate Judge.
The Magistrate Judge assigned to this actionl prepared a thorough Report and Recommendation
("Report") and opines that Plaintiffs complaint should be dismissed without issuance and service of
process. (ECF No. 13). The Report sets forth, in detail, the relevant facts and standards of law on
this matter, and this Court incorporates those facts and standards without a recitation.
II. LEGAL STANDARD
The Court is charged with making a de novo determination of those portions of the Report to which
specific objections are made, and the Court may accept, reject, or modify, in whole or in part, the
recommendation of the Magistrate Judge, or recommit the matter to the Magistrate Judge with
instructions. See 28 U.S.C. § 636(b)(1). However, a district{2019 U.S. Dist. LEXIS 2} court is only
required to conduct a de novo review of the specific portions of the Magistrate Judge's Report to
which an objection is made. See 28 U.S.C. § 636(b); Fed. R. Civ. P. 72(b); Carniewski v. W. Virginia
Bd. ofProb. & Parole, 974 F.2d 1330 (4th Cir. 1992). In the absence of specific objections to portions
of the Report of the Magistrate, this Court is not required to give an explanation for adopting the
recommendation. See Cambyv. Davis, 718 F.2d 198,199 (4th Cir. 1983).
III. DISCUSSION

lydcases

1

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

96039071
*

:

The Report recites the factual and procedural background giving rise to this action in detail, which is
incorporated by reference. Briefly, Plaintiff has brought claims for false arrest and imprisonment
under the FTCA. (ECF No. 1). Plaintiff has requested $15 million in damages, appointment of
counsel, and any other relief the court may provide. (ECF No. 1).
' A. Plaintiffs Claims are Barred by Heck
The Magistrate Judge correctly opines that Plaintiffs claims concerning his alleged false arrest and
imprisonment are barred by the holding in Heck v. Humphrey, 512 U.S. 477,114 S. Ct. 2364,129 L.
Ed. 2d 383 (1994). (ECF No. 13). In Heck, the Supreme Court held that "in order to recover damages
from allegedly unconstitutional conviction or imprisonment, or for other harm whose unlawfulness
would render a conviction or sentence invalid,... a § 1983 Plaintiff must prove that the conviction or
sentence has been reversed on direct appeal,{2019 U.S. Dist. LEXIS 3} expunged by executive
order, declared invalid by a state tribunal authorized to make such a determination, or called into
question by a federal court's issuance of a writ of habeas corpus, 28 U.S.C. § 2254."
As the District Court, we must "consider whether judgment in favor of the Plaintiff would necessarily
imply the invalidity of his conviction or sentence; if it would, the complaint must be dismissed unless
the Plaintiff can demonstrate the conviction or sentence has already been invalidated." Heck, 512
U.S. at 487. The Report submits that a judgment in Plaintiff's favor on his false arrest and
imprisonment claims would necessarily imply the invalidity of his subsequent conviction. (ECF No.

13).
Although Plaintiff objects the Report, Plaintiffs objections fail to demonstrate he has successfully
challenged his conviction such that his claims would not be barred by Heck. (ECF No. 16). First,
Plaintiff argues that the Report is contrary to Heck, however, Plaintiff does not explain how the
Report departs from the established precedent. (ECF No. 16). Although Plaintiff cites to several
cases for support, they miss the point and do not address the issue at hand. (ECF No. 16). Next,
Plaintiff argues that the Magistrate Judge{2019 U.S. Dist. LEXIS 4} viewed Plaintiffs FTCA claims
as a malicious prosecution claim and this was clear error. (ECF No. 16). However, the Magistrate
Judge makes no reference to malicious prosecution in the Report. (ECF No. 13).
Finally, Plaintiff asserts that "to properly apply Heck's bar against certain damage action claims a
district court 'must' analyze the relationship between plaintiff's claims and the charge on which he
was convicted. Hardrick v. City of Bolingbrook, 522 F.3d 758, 762 (7th. Cir. 2008)." (ECF No. 13). In
Hardrick, the Plaintiff pled guilty to resisting a peace officer and the Court held Plaintiffs § 1983
action for excessive force was not precluded under Heck. The Court reasoned the allegations did not
present a collateral attack to his conviction rather an argument that he suffered unnecessary injuries.
Hardrick v. City of Bolingbrook, 522 F.3d 758 (7th Cir. 2008). This case is inapposite from the one at
hand in which Plaintiff has brought an action under the FTCA alleging false arrest and imprisonment
which are directly related to his conviction and a favorable determination of these claims would imply
the invalidity of his conviction.2 Therefore, because Plaintiff does not allege, and court records do no
show that he successfully challenged the lawfulness of his federal conviction, the Court dismisses
Plaintiff's{2019 U.S. Dist. LEXIS 5} claims as they are barred by Heck.
B. Denial of Request for Appointment of Counsel
In his Complaint, Plaintiff asserts that he has a right to appointed counsel. (ECF No. 1). However, the
Magistrate Judge correctly finds Plaintiff is not entitled to the appointment of counsel. (ECF No. 13).
Although Plaintiff objects that appointment of counsel is necessary, his argument is unavailing. (ECF
No. 16). As the Report sets out, "it is well settled that in civil actions the appointment of counsel
should be allowed only in exceptional cases." Cook v. Bounds, 518 F.2d 779, 780 (4th Cir. 1965).
/

lydcases

2

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

96039071

After a review of Plaintiffs Complaint, the Court finds no such circumstances are present in this
case. Therefore, Plaintiff is not entitled to appointed counsel.
C. Plaintiffs Motion to Recuse Magistrate Judge and Judge Anderson
Plaintiff has filed a Motion requesting the Magistrate Judge and Judge Anderson to recuse
themselves from his case. (ECF No. 6). Plaintiff asserts various allegations against both Judges in
his motion. Specifically, Plaintiff alleges that neither Judge is impartial to his case and both continue
to make bias decisions to protect the executive branch's misconduct. (ECF No. 6). Plaintiffs
allegations stem from the fact that he{2019 U.S. Dist. LEXIS 6} has filed more than one lawsuit and
the lawsuits have been characterized as "related cases" by the court. Plaintiffs allegations of bias
have no basis in fact or law. The nature of the judge's bias must be personal and not judicial. Shaw
v. Martin, 733 F.2d 304, 308 (4th Cir.1984). A judge is not disqualified because his familiarity with
the facts of a case stem from his judicial conduct in presiding over earlier proceedings. United States
v. Parker, 742 F.2d 127 (4th Cir.1984). Therefore, Plaintiffs Motion to Recuse the Magistrate Judge
and Judge Anderson are denied.
IV. CONCLUSION
After carefully reviewing the applicable laws, the record in. this case, the Report, and the objections
thereto, this Court finds the Magistrate Judge's recommendation fairly and accurately summarizes
the facts and applies the correct principles of law. Accordingly, this Court adopts the Magistrate
Judge's Report and Recommendation. (ECF No.13). Thus, Plaintiff's complaint is dismissed with
prejudice and without issuance and service of process. (ECF No. 1).
IT IS SO ORDERED.

October 4, 2019
Columbia, South Carolina
Isl Joseph F. Anderson, Jr.
Joseph F. Anderson, Jr.
United States District Judge
Footnotes

1

»

The Magistrate Judge's review is made in accordance with 28 U.S.C. § 636(b) and Local Civil Rule
73.02(B)(2)(c) (D.S.C.). The Magistrate Judge makes only a recommendation to this Court. The
recommendation has no presumptive weight, and the responsibility to make a final determination
remains with the Court. Mathews v. Weber, 423 U.S. 261, 96 S. Ct. 549, 46 L. Ed. 2d 483 (1976).
The Court is charged with making a de novo determination of those portions of the Report and
Recommendation to which specific objection is made, and the Court may accept, reject, or modify, in
whole or in part, the recommendation of the Magistrate Judge, or recommit the matter to the
Magistrate Judge with instructions. See 28 U.S.C. § 636(b).
2
Plaintiff was convicted of offenses under 21 U.S.C. §§ 841(a)(1), 846, and 861(a) and 8 U.S.C. §
1326(a) and sentenced to life imprisonment.

lydcases

3

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

96039071

FILED: April 28, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7511
(3:19-cv-02482-JFA)
i

MICHAEL OWEN HARRIOT
Plaintiff - Appellant
v.
UNITED STATES, (Federal Bureau of Investigation "FBI")
Defendant - Appellee

ORDER

The court denies the petition for rehearing and rehearing en banc. No judge
requested a poll under Fed. R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge Agee, Judge Quattlebaum, and
Judge Rushing.
L

For the Court
/s/ Patricia S. Connor. Clerk

iir
ferStu
S.Y&-... ---

iff

m
-yjT:

St-

